                                            UNCLASSIFIED

                                   United States Department of State
                                 and the Broadcasting Board of Governors
                                      Office of Inspector General




                                           Office of Audits
Office of Inspector General


                                 System Review Report
                               on the Department of the
                              Treasury Office of Inspector
                              General Audit Organization
                                 Report Number AUD-10-12, November 2009




                                              UNCLASSIFIED
                                                              United States Department of State
                                                              and the Broadcasting Board of Governors

                                                              O.ffice of Inspector General




                                      System Review Report



To The Honorable Eric M. Thorson, Inspector General
Department of the Treasury

We have reviewed the system of quality control for the audit organization of the Department of
the Treasury Office of Inspector General (OIG) in effect for the year ended March 31, 2009. A
system of quality control encompasses the DIG's organizational structure and the policies
adopted and procedures established to provide it with reasonable assurance of conforming with
Government Auditing Standards. The elements of quality control are described in Government
Auditing Standards. The OIG is responsible for designing a system of quality control and
complying with it to provide the DIG with reasonable assurance of performing and reporting in
conformity with applicable professional standards in all material respects. Our responsibility is to
express an opinion on the design of the system of quality control and the OIG's compliance
therewith based on our review.

Our review was conducted in accordance with Government Auditing Standards and guidelines
established by the Council of the Inspectors General on Integrity and Efficiency (CIGfE).
During our review, we interviewed Department of the Treasury DIG personnel and obtained an
understanding of DIG's audit organization and the design of DIG's system of quality control
sufficient to assess the risks implicit in DIG's audit function. Based on our assessments, we
selected engagements and administrative files to test for conformity with professional standards
and compliance with DIG's system of quality control. The engagements selected represented a
reasonable cross-section ofOIG's audit organization. Prior to concluding the review, we
reassessed the adequacy of the scope of the peer review procedures and met with OIG
management to discuss the results of our review. We believe that the procedures we performed
provide a reasonable basis for our opinion.

In performing our review, we obtained an understanding of the system of quality control for
DIG's audit organization. In addition, we tested compliance with DIG's quality control policies
and procedures to the extent we considered appropriate. These tests covered the application of
OIG's policics and procedures on selected engagements. Our review was based on selected
tests; therefore, it would not necessarily detect all weaknesses in the system of quality control or
all instances of noncompliance with it.

There are inherent limitations in the effectiveness of any system of quality control; therefore,
noncompliance with the system of quality control may occur and not be detected. Projection of
any evaluation of a system of quality control to future periods is subject to the risk that the
system of quality control may become inadequate because of changes in conditions or because
the degree of compliance with the policies or procedures may deteriorate.

The enclosure to this report identifies the offices of the Department of the Treasury DIG that we
visited and the engagements that we reviewed.

In our opinion, the system of quality control for the audit organization of the Department of the
Treasury DIG in effect for the year ended March 31, 2009, has been suitably designed and
complied with to provide the Department of the Treasury DIG with reasonable assurance of
perfonning and reporting in confonnity with applicable professional standards in all material
respects. Federal audit organizations can receive a rating of pass, pass with deficiencies, orfail.
Thc Department of the Treasury DIG has received a peer review rating of pass. As is
customary, we have issued a letter dated November 19, 2009, which sets forth findings that were
not considered to be of sufficient significance to affect our opinion expressed in this report.
Your response to the draft report is included as an Exhibit, and excerpts are incorporated into the
relevant sections of the letter.

In addition to reviewing the Department of the Treasury DIG's system of quality control to
ensure adherence with Government Audifing Standards, we applied ccrtain limited procedures in
accordance with guidance established by elGIE related to the Department of the Treasury DIG's
monitoring of engagements performed by Independent Public Accountants (IPA) under contract
whcrc the IPA served as the principal auditor. It should be noted that monitoring of engagements
performed by IPAs is not an audit and therefore is not subject to the requirements of Government
Audifing Standards. The purpose of our limited proccdurcs was to dctcnnine whether the
Dcpartment of the Treasury DIG had controls to ensure that IPAs performed contracted work in
accordance with professional standards. However, our objective was not to express an opinion,
and accordingly, we do not express an opinion, on the Department of the Treasury DIG's
monitoring of work perfonned by IPAs.



Harold W. Geisel, Acting Inspector General

Enclosure
                                             UNCLASSIFIED




                                TABLE OF CONTENTS

     Section                                                                                                           Page

SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
LETTER OF COMMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
APPENDIX. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9




                                              UNCLASSIFIED
                                            UNCLASSIFIED




                      SCOPE AND METHODOLOGY

        We tested compliance with the Department of the Treasury Office of Inspector
    General (OIG) audit organization’s system of quality control to the extent we con-
    sidered appropriate. These tests included a review of 11 of 39 audit and attestation
    reports issued during the period April 1, 2008, through March 31, 2009, and semian-
    nual reporting periods of April 1, 2008, through March 31, 2009, as shown in Tables
    1 and 2. We also reviewed the internal quality control reviews performed by the
    Department of the Treasury OIG.

        Of these 11 reports, six were performance audits; one was a financial statement
    audit; and four were OIG’s monitoring of engagements performed by Independent
    Public Accountants (IPA) where the IPA served as the principal auditor during the
    period April 1, 2008, through March 31, 2009.

        We visited the Boston, Massachusetts, and Washington, D.C., offices of the De-
    partment of the Treasury OIG.

         Table 1. Review of Reports Performed by the Department of the Treasury OIG

          Report No. Report Date Report Title
          OIG-08-030 04/09/08    TERRORIST FINANCING/MONEY LAUNDER-
                                 ING: Responsibility for Bank Secrecy Act Is Spread
                                 Across Many Organizations
          OIG-08-036 06/12/08    BILL AND COIN MANUFACTURING: BEP Needs
                                 to Enforce and Strengthen Controls at Its Eastern
                                 Currency Facility to Prevent and Detect Employee
                                 Theft
          OIG-08-038 07/21/08    ACCESSIBILITY OF FINANCIAL SERVICES:
                                 OCC Is Appropriately Using HMDA Data in its Risk
                                 Assessment Process to Identify Possible Discrimina-
                                 tory Lending Practices
          OIG-08-040 07/25/08    CAPITAL INVESTMENTS: Treasury Foreign In-
                                 telligence Network Project Experienced Delays and
                                 Project Management Weaknesses




OIG Report No. AUD-10-12, System Review Report on the Department of Treasury OIG Audit Organization - Nov 2009   1 .


                                            UNCLASSIFIED
                                            UNCLASSIFIED



                  Report No. Report Date Report Title
                  OIG-08-041 07/28/08    FINANCIAL MANAGEMENT: Controls Over Trea-
                                         sury’s Working Capital Fund Expense Process Need
                                         Improvement
                  OIG-09-002 10/21/08    Audit of the United States Mint’s Schedule of Custo-
                                         dial Deep Storage Gold and Silver Reserves as of Sep-
                                         tember 30, 2008 and 2007 (financial statement audit)
                  OIG-09-013 11/25/08    SAFETY AND SOUNDNESS: Material Loss Review
                                         of ANB Financial, National Association



                Table 2. Review of the Department of the Treasury OIG Monitoring Files of
                Audit Work Performed by an Independent Public Accounting Firm

                  Report No. Report Date                 Report Title
                  OIG-08-046 09/26/08                    INFORMATION TECHNOLOGY: Federal Infor-
                                                         mation Security Management Act Fiscal Year 2008
                                                         Performance Audit
                  OIG-09-004 11/07/08                    FINANCIAL MANAGEMENT: Report on the
                                                         Bureau of the Public Debt Trust Fund Management
                                                         Branch Schedules for Selected Trust Funds as of and
                                                         for the Year Ended September 30, 2008
                  OIG-09-006 11/17/08                    Audit of the Department of the Treasury’s Fiscal
                                                         Years 2008 and 2007 Financial Statements
                  OIG-09-021 12/22/08                    Audit of the Department of the Treasury Forfeiture
                                                         Fund’s Fiscal Years 2008 and 2007 Financial State-
                                                         ments




2 .   OIG Report No. AUD-10-12, System Review Report on the Department of Treasury OIG Audit Organization - Nov 2009


                                            UNCLASSIFIED
                                            UNCLASSIFIED




                             LETTER OF COMMENT

         To The Honorable Eric M. Thorson, Inspector General

         Department of the Treasury



        We have reviewed the system of quality control for the audit organization of the
    Department of the Treasury Office of Inspector General (OIG) in effect for the
    year ended March 31, 2009, and have issued our report thereon dated November 19,
    2009, in which the Department of the Treasury OIG received a rating of pass. That
    report should be read in conjunction with the comments in this letter, which were
    considered in determining our opinion. The findings described below were not con-
    sidered to be of sufficient significance to affect the opinion expressed in that report.

        Finding 1. Documentation of Fraud Risk Assessment and Internal Con-
    trol Review

         In two of the six performance audits reviewed, we found that the audit team
    marked the audit guide’s section on fraud risk assessment as “Not Applicable” and
    did not document in the working papers any explanation for this conclusion. Gov-
    ernment Auditing Standards, paragraph 7.30, states that auditors, in planning the
    audit, “should assess risks of fraud occurring that is significant within the context
    of the audit objectives.” The paragraph further states that auditors “should discuss
    among the team fraud risks, including factors such as individuals’ incentives or pres-
    sures to commit fraud, the opportunity for fraud to occur, and rationalizations or
    attitudes that could allow individuals to commit fraud.” Also, auditors “should gather
    and assess information to identify risks of fraud that are significant within the scope
    of the audit objectives or that could affect the findings and conclusions.” In addi-
    tion, paragraph 7.77 states that auditors “must prepare audit documentation related
    to planning, conducting, and reporting for each audit.” The audit directors stated
    that the fraud risk assessments were done during the planning phase but had not
    been documented. They also stated that these audits pertained to Treasury regula-
    tors and therefore had less fraud risk.

        Additionally, for these same two performance audits, the audit team marked
    the audit guide’s section on internal control review as “Not Applicable” and did
    not document in the working papers any explanation for this conclusion. Govern-

OIG Report No. AUD-10-12, System Review Report on the Department of Treasury OIG Audit Organization - Nov 2009   3 .


                                            UNCLASSIFIED
                                            UNCLASSIFIED



            ment Auditing Standards, paragraph 7.16, states that auditors “should obtain an
            understanding of internal control that is significant within the context of the audit
            objectives.” Within that context, auditors “should assess whether internal control
            has been properly designed and implemented.” The paragraph further states, “For
            those internal controls that are deemed significant within the context of the audit
            objectives, auditors should plan to obtain sufficient, appropriate evidence to support
            their assessment about the effectiveness of those controls.” Paragraph 7.77, which
            requires auditors to prepare documentation, is also applicable.



               Recommendation 1: Department of the Treasury OIG management should
               comply with Government Auditing Standards and require audit teams to docu-
               ment why the fraud risk assessment and internal control review are not appli-
               cable to a performance audit when such is concluded.


                In its response to the draft report, the Department of the Treasury OIG official
            concurred with the finding and recommendation, stating that the need to explain in
            the audit documentation why a fraud risk assessment or internal control review is
            considered not applicable for a particular audit had been discussed with senior man-
            agers. The OIG official said that there will be a follow-up on the discussion by in-
            cluding a requirement in the updated Office of Audit Policy and Procedures Manual
            that whenever an audit guide step is marked “Not Applicable,” the reason must be
            stated in the audit documentation and signed off by a supervisor. The OIG official
            further stated that “it will make clear that a ‘Not Applicable’ determination for steps
            related to fraud risk assessment and internal control review should be rare.”

              Finding 2. System of Quality Control – Updated Policy and Procedures
            Manual

                 We found that the Department of the Treasury OIG had established a system of
            quality control, including the Office of Audit Policy and Procedures Manual; howev-
            er, the Manual had not been updated to incorporate the changes in the Government
            Auditing Standards July 2007 revision. An updated manual incorporating changes
            in the Government Auditing Standards July 2007 revision has been drafted and is
            pending final management approval. OIG officials said that final approval had been
            delayed because of other priorities and a lengthy management review process.

                Although the Office of Audit Policy and Procedures Manual had not been
            updated since May 2006, the Department of the Treasury OIG has issued several
            interim policies to ensure compliance with current requirements of Government


4 .   OIG Report No. AUD-10-12, System Review Report on the Department of Treasury OIG Audit Organization - Nov 2009


                                            UNCLASSIFIED
                                            UNCLASSIFIED



    Auditing Standards. Also, current Government Auditing Standards requirements
    have been incorporated into the procedures in the TeamMate library. Our review of
    11 audit reports identified no significant instances of noncompliance with applicable
    auditing standards.



        Recommendation 2: Department of the Treasury OIG management should
        finalize and issue the Office of Audit Policy and Procedures Manual incorpo-
        rating changes contained in the Government Auditing Standards July 2007 revi-
        sion.


        In its response to the draft report, the Treasury OIG official concurred with the
    finding and recommendation, stating that executive review and final approval of the
    updated Office of Audit Policy and Procedures Manual had been delayed because of
    “other pressing matters” but that the OIG plans to issue the Manual in final form by
    December 31, 2009.




         Harold W. Geisel, Acting Inspector General




OIG Report No. AUD-10-12, System Review Report on the Department of Treasury OIG Audit Organization - Nov 2009   5 .


                                            UNCLASSIFIED
                                            UNCLASSIFIED




6 .   OIG Report No. AUD-10-12, System Review Report on the Department of Treasury OIG Audit Organization - Nov 2009


                                            UNCLASSIFIED
                                            UNCLASSIFIED




                               RECOMMENDATIONS

    Recommendation 1: Department of the Treasury OIG management should com-
      ply with Government Auditing Standards and require audit teams to document
      why the fraud risk assessment and internal control review are not applicable to a
      performance audit when such is concluded.

    Recommendation 2: Department of the Treasury OIG management should final-
      ize and issue the Office of Audit Policy and Procedures Manual incorporating
      changes contained in the Government Auditing Standards July 2007 revision.




OIG Report No. AUD-10-12, System Review Report on the Department of Treasury OIG Audit Organization - Nov 2009   7 .


                                            UNCLASSIFIED
                                            UNCLASSIFIED




8 .   OIG Report No. AUD-10-12, System Review Report on the Department of Treasury OIG Audit Organization - Nov 2009


                                            UNCLASSIFIED
                                            UNCLASSIFIED



         Exhibit




OIG Report No. AUD-10-12, System Review Report on the Department of Treasury OIG Audit Organization - Nov 2009   9 .


                                            UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
UNCLASSIFIED




 UNCLASSIFIED
